                      UNITED STATES DEPARTMENT OF EDUCATION
                             OFFICE OF INSPECTOR GENERAL
                                        32 Old Slip, 26th Floor, Financial Square,
                                             New York, New York 10005
                                      PHONE (646) 428-3860 · FAX (646) 428-3868

                                                      January 31, 2007

                                                                                               Control Number
                                                                                               ED-OIG/A02G0009

Richard P. Mills
Commissioner of Education
New York State Education Department
Education Building
89 Washington Avenue
Albany, NY 12234

Dear Commissioner Mills:

This Final Audit Report, entitled Mid-Hudson Migrant Education Outreach Program (MEOP),
presents the results of our audit. The purpose of the audit was to determine whether 1) the Mid-
Hudson MEOP adhered to the Migrant Education Program (MEP) student eligibility rules, and 2)
the Mid-Hudson MEOP conducted prohibited lobbying. Our review covered the period of
September 1, 2002, through August 31, 2005.1 During our limited review, we found that 1) the
Mid-Hudson MEOP adhered to MEP student eligibility rules, and 2) that Mid-Hudson MEOP
did not conduct prohibited lobbying.

New York State Education Department (NYSED) MEP’s re-interviewing initiative found an
error rate of 3.91 percent for all of New York State (NYS), which resulted in a reduction of the
NYSED migrant students population count. However, based on the March 1, 2005, NYSED
MEP’s re-interviewing initiative report, Mid-Hudson MEOP’s number of eligible students
participating in the NYSED MEP was not reduced. As a result of further review of the entire
migrant children population conducted by NYSED MEP as well as a routine review of existing
and new Certificates of Eligibility (COEs),2 Mid-Hudson MEOP’s eligible migrant students
population was reduced by a total of 431 (191 in 2002-2003, 152 in 2003-2004, and 88 in 2004-
2005).

Our review was made for the limited purpose described above and would not necessarily disclose
all material weaknesses in the administration of the NYSED MEP program.




1
  NYSED MEP had already identified certain migrant students as ineligible during our audit period, and it is
reflected in our sample population in Table 2.
2
  A COE is a form to document migrant eligibility.
           Our mission is to ensure equal access to education and to promote educational excellence throughout the Nation.
Final Report
ED-OIG/A02G0009                                                                       Page 2 of 6


                                       BACKGROUND


The MEP is authorized under Part C of Title I of the Elementary and Secondary Education Act
of 1965, as amended by the No Child Left Behind Act of 2001. The statutory purposes of the
program are to support high-quality and comprehensive educational programs for migrant
children, to help reduce the educational disruption and other problems from repeated moves, and
to ensure that migrant children benefit from state and local system reforms. Pursuant to 34
C.F.R. § 200.81 (2003), federal regulations define an eligible migratory child as a child who is,
or whose parent, spouse, or guardian is, a migratory agricultural worker (including a migratory
dairy worker) or a migratory fisher, and who, in the preceding 36 months, has moved from one
school district to another, to obtain temporary or seasonal employment in agricultural or fishing
work.

The goal of the MEP is to ensure that children of migrant workers have access to and benefit
from the same free, appropriate public education, including public preschool education, provided
to other children. MEP funds help state and local educational agencies remove barriers to the
school enrollment, attendance, and achievement of migrant children.

The MEP provides formula grants to State Educational Agencies (SEAs) to establish or improve
programs of education for migratory children. Federal funds allocated to SEA are based on each
state’s per-pupil expenditure for education and counts of eligible migratory children, ages 3
through 21, residing within the state.

NYSED funding for fiscal year 2002-2003 was $9,779,974, for 2003-2004 $9,859,142, and for
2004-2005 $9,594,158. In addition, only a minimal amount of the NYSED’s MEP funds were
retained at the NYSED for administration of the program. The remainder of the funds was
distributed among 11 MEOPs, which are comprised of one or more school districts, as well as
between various Support Services. Mid-Hudson MEOP received funding of $1,119,663 to
provide services for 2,029 migrant students for 2002-2003, $1,183,718 for 1,431 in 2003-2004,
and $1,250,964 for 1,084 in 2004-2005.

On July 6, 2004, the U. S. Department of Education’s Office of Migrant Education requested that
each state complete a re-interview of the migrant child count for the year 2003-2004. The
NYSED MEP in conjunction with Kansas, Missouri, and Nebraska MEPs began auditing the
eligibility of migrant children on October 12, 2004. All 11 NYS MEOPs were represented in a
sample of 383 migrant students. The process of re-interviewing the sampled migrant students
concluded on January 27, 2005, and resulted in the final error rate of 3.91 percent with 15
students determined to be ineligible from the total of 383 children sampled. Moreover, based on
the March 1, 2005, NYSED MEP’s re-interviewing initiative report, Mid-Hudson MEOP’s
number of eligible students participating in the NYSED MEP was not reduced.
Final Report
ED-OIG/A02G0009                                                                        Page 3 of 6


                                       AUDIT RESULTS


We found that, based on our limited review, the Mid-Hudson MEOP did adhere to the MEP
eligibility rules for the families we were able to interview, and it did not conduct prohibited
lobbying. Based on our interviews with the parents, guardians, or individuals of 10 students in
our sample of 150, the students appeared to have been eligible at the time the COEs were
originally completed. Nevertheless, we were unable to interview most of the parents, guardians,
or individuals for students we attempted to interview. We noted, however, that as a result of the
re-interviewing initiative, further review of the entire NYSED MEP migrant children population,
as well as a routine review of existing and new COEs, Mid-Hudson MEOP’s eligible migrant
students population was reduced by a total of 431 (191 in 2002-2003, 152 in 2003-2004, and 88
in 2004-2005). In addition, we reviewed the grant expenditures with supporting purchase orders
and invoices and found no evidence of prohibited lobbying.

Objective 1 - Student Eligibility
We determined that, based on our limited review, the Mid-Hudson MEOP did adhere to the MEP
eligibility rules for the families we were able to interview. Three samples of 50 students for each
year (2003 – 2005) were selected for our review, totaling 150 migrant students sampled for the
entire audit period. The population for each year included only students that had not already
been identified by NYSED MEP as “ineligible.” For the MEP participants selected for testing,
we reviewed COEs and the documentation included in participant records for all 150 students
identified in our sample.

We attempted to interview 71 parents, guardians, or individuals of the 150 migrant students
selected, and were only able to interview parents, guardians, or individuals representing 10
students sampled. All 10 students appeared to have been eligible at the time the COEs were
originally completed.

We were unable to locate the remaining 61 parents, guardians, or individuals out of the 71
attempted during our visits. See the table below for illustrative interview results.

                                    Table 1: Interview Results
                                              2002-2003 2003-2004 2004-2005              Total
Interviewed and Found Ineligible                  0         0         0                    0
Interviewed and Found Eligible                    1         4         5                    10
Attempted Not Interviewed                        23        22        16                    61
Not Attempted                                    26        24        29                    79
Total Sample                                     50        50        50                   150
Final Report
ED-OIG/A02G0009                                                                        Page 4 of 6

Objective 2 - Prohibited Lobbying
We determined that the Mid-Hudson MEOP did not use MEP funds for prohibited lobbying.
The documentation reviewed did not provide evidence that Mid-Hudson MEOP spent any MEP
funds for lobbying activities. We determined that it was acceptable for Mid-Hudson MEOP to
fund and participate in meetings and camps sponsored by Rural & Migrant Ministry (RMM) as
they provided educational services and information, and they did not involve lobbying.

Upon review of supporting documentation provided, we found several purchase requisition
documents with attached receipts and additional information pertaining to purchases related to
RMM. The Mid-Hudson MEOP reimbursed employees for meeting registration fees and
refreshments at meetings and summer camp organized and sponsored by RMM. According to
the relevant documentation for the meetings and summer camp, none of the sessions were related
to influencing Congress or the State legislature. The amounts were minor as many were less
than $10. Therefore, we determined that the meetings and summer camp expenses did not
violate the prohibition on the use of appropriated funds to influence legislation or appropriations
pending before Congress or any State legislature as contained in Public Law 108-447, Division
F, § 503 (b) of the Departments of Labor, Health and Human Services, and Education, and
Related Agencies Appropriations Act, 2005.




                      OBJECTIVES, SCOPE, AND METHODOLOGY


The objective of our audit was to determine whether 1) the Mid-Hudson MEOP adhered to the
MEP student eligibility rules, and 2) the Mid-Hudson MEOP conducted prohibited lobbying.
Our review covered the period of September 1, 2002, through August 31, 2005.

To accomplish our objective, we reviewed federal policy and procedures for identifying and
recruiting migrant children. We obtained the NYSED’s migrant funding amounts, which were
awarded based on the count. We interviewed NYSED MEP officials and reviewed relevant
documentation to gain an understanding of, and assessed Mid-Hudson MEOP’s controls for
ensuring student eligibility and the accurate reporting of migrant child counts to the NYSED
MEP in accordance with applicable statute, regulations, and guidance. We also interviewed
Mid-Hudson MEOP officials.

In addition, we reviewed relevant documentation including payroll, conference registration fees,
meeting expenses, supplies, and advertising supporting records, to ascertain the validity of the
allegation pertaining to lobbying activities conducted by the Mid-Hudson MEOP. We relied on
Mid-Hudson MEOP grant summary reports for the period of September 1, 2002, through August
31, 2005, generated from its financial accounting system. We verified the completeness of the
data by comparing the total expenditures on the report to the total expenditures reported to
NYSED. Based on the results of these tests, we concluded that the reports were sufficiently
reliable to be used in meeting the audit objective.
Final Report
ED-OIG/A02G0009                                                                         Page 5 of 6

We relied on computer-processed data extracted and provided by NYS Migrant Education
Identification and Recruitment Program (ID&R). We obtained and validated the population of
Mid-Hudson MEOP migrant children for each year in our review. The population for each
year’s validated count included students whom had been determined by the NYSED MEP to be
ineligible for services (see Table 2). Since NYSED MEP had already determined these students
to be ineligible, we decided to omit these individuals from the population to be sampled in each
year. The adjustments to each year’s Mid-Hudson MEOP migrant children population are noted
below:

           Table 2: Adjusted Mid-Hudson Migrant Children Population by Year
        Year                  Total Count           Ineligible Count           Net Count
      2002-2003                  2,220                     191                   2,029
      2003-2004                  1,583                     152                   1,431
      2004-2005                  1,172                      88                   1,084
        Total                    4,975                     431                   4,544

Sequential numbers were assigned to each of the records in the “adjusted” population files. For
each of the funding years, we randomly selected 50 students from each year, totaling 150
migrant students sampled for the entire audit period. We then reviewed COEs for all 150 MEP
participants selected for testing. For the selected participants, we attempted to perform
interviews of parents, guardians, or individuals for 71 of the selected students, and reviewed the
documentation included in participant records. We were only able to interview parents,
guardians, or individuals representing 10 students who were found eligible, from our sample of
150. Therefore, our scope was limited regarding our first audit objective.

We performed our fieldwork at Mid-Hudson MEOP at State University of New York in New
Paltz, NY, and the ID&R office in Albany, NY, during the period February 24, 2006, through
March 30, 2006. We performed the interviews of the parents, guardians, or individuals of the
selected students in Orange County, NY, from April 24, 2006, through April 28, 2006.

We held an exit briefing with NYSED MEP and Mid-Hudson MEOP officials on November 16,
2006. During the exit briefing, we discussed the results of our audit, and both NYSED MEP and
Mid-Hudson MEOP officials agreed that a draft report was not necessary. Our audit was
performed in accordance with generally accepted government auditing standards appropriate to
the scope of the review described above.
Final Report
ED-OIG/A02G0009                                                                       Page 6 of 6


                               ADMINISTRATIVE MATTERS


In accordance with the Freedom of Information Act (5 U.S.C. § 552), reports issued by the
Office of Inspector General are available to members of the press and general public to the extent
information contained therein is not subject to exemptions in the Act.

We appreciate the cooperation and assistance extended by your staff during the audit. If you
have any questions, please contact Daniel P. Schultz, Regional Inspector General for Audit, at
(646) 428-3888.

                                             Sincerely,

                                             /s/
                                             Daniel P. Schultz
                                             Regional Inspector General for Audit
